                                                        Q   Ernst & Young LLP                  Q   Phone: (202) 327-6000

                                                            1225 Connecticut Avenue, N.W.          Fax:   (202) 327-6200
                                                            Washington, DC 20036                   www.ey.com



                                     Report of Independent Auditors


To the Administrator and the Office of Inspector General
of the National Aeronautics and Space Administration


We were engaged to audit the accompanying consolidated balance sheets of the National
Aeronautics and Space Administration (NASA) as of September 30, 2006 and 2005, and the
related consolidated statements of net cost, changes in net position and financing and combined
statements of budgetary resources for the fiscal years then ended. These financial statements are
the responsibility of NASA’s management.

During fiscal year (FY) 2003, NASA implemented an Integrated Financial Management Program
(IFMP) system (now referred to as the Integrated Enterprise Management Program [IEMP]
system), specifically the Core Financial Module. NASA’s management identified significant
errors beginning with its September 30, 2003 financial statements resulting from the
implementation of IEMP. During FY 2004 through FY 2006, NASA’s management continued
to identify and resolve significant system conversion and data integrity issues, implement
internal control, and develop policies and procedures. In FY 2005 and FY 2006, internal control
and financial reporting processes using the Core Financial Module were continuing to evolve,
including the implementation and refinement of routine account analysis and reconciliation
processes and the analysis of alternatives in developing effective approaches in accounting for
property, plant, and equipment. As a result of these limitations, we were unable to obtain
sufficient evidential support for the amounts presented in the consolidated balance sheets as of
September 30, 2006 and 2005, and the related consolidated statements of net costs, changes in
net position and financing and combined statements of budgetary resources for the fiscal years
then ended.

Because of the matters discussed in the preceding paragraph, the scope of our work was not
sufficient to enable us to express, and we do not express, an opinion on the consolidated balance
sheets as of September 30, 2006 and 2005, and the related consolidated statements of net cost,
statements of changes in net position and financing, and combined statements of budgetary
resources for the fiscal years then ended.

In its preparation and analysis of its September 30, 2006 and 2005 financial statements, NASA
identified but largely did not quantify certain configuration and data integrity issues and errors in
balances reported on its financial statements. The notes to the financial statements describe
certain departures from accounting principles generally accepted in the United States of America
in NASA’s FY 2006 and FY 2005 financial statements. The notes also refer to a potential
adjustment for certain mission-related assets (theme assets) that, if recorded, could have a
significant impact on the financial statements.




                          Ernst & Young LLP is a member of Ernst & Young International, Ltd.
!@                                            Q   Ernst & Young LLP

Report of Independent Auditors
Page 2 of 2

The information presented in the Management’s Discussion and Analysis (MD&A), the
Required Supplementary Stewardship Information, and the Required Supplementary Information
is not a required part of the NASA’s financial statements but is considered supplementary
information required by Office of Management and Budget (OMB) Circular A-136, Financial
Reporting Requirements. Such information has not been subjected to auditing procedures, and
accordingly, we express no opinion on it. We were unable to apply to the information certain
procedures prescribed by professional standards within the time frames established by OMB
because of the limitations on the scope of our audit of the financial statements discussed above.
Finally, programs identified in the FY 2005 financial statements do not directly align with the
major goals and outputs described in the MD&A.

In accordance with Government Auditing Standards, we have also issued our reports dated
November 3, 2006 on our consideration of NASA’s internal control over financial reporting and
on our tests of its compliance with certain provisions of laws, regulations, and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over
financial reporting and compliance and the results of that testing and not to provide an opinion
on the internal control over financial reporting or on compliance. Those reports are an integral
part of an audit performed in accordance with Government Auditing Standards and should be
considered in assessing the results of our work.




November 3, 2006
Washington, D.C.
                                                       Q   Ernst & Young LLP                  Q   Phone: (202) 327-6000

                                                           1225 Connecticut Avenue, N.W.          Fax:   (202) 327-6200
                                                           Washington, DC 20036                   www.ey.com



                                     Report on Internal Control


To the Administrator and the Office of Inspector General
of the National Aeronautics and Space Administration


We were engaged to audit the financial statements of the National Aeronautics and Space
Administration (NASA) as of and for the year ended September 30, 2006, and have issued our
report thereon dated November 3, 2006. The report states that because of the matters discussed
therein, the scope of our work was not sufficient to enable us to express, and we do not express,
an opinion on the consolidated balance sheet as of September 30, 2006, and the related
consolidated statements of net cost, changes in net position and financing and combined
statement of budgetary resources for the fiscal year then ended.

In planning and performing our work, we considered NASA’s internal control over financial
reporting in order to determine our procedures for the purpose of expressing an opinion on the
financial statements, which we were ultimately not able to do, and not to provide an opinion on
the internal control over financial reporting. We limited our internal control testing to those
controls necessary to achieve the objectives described in Office of Management and Budget
(OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial Statements. We did not
test all internal controls relevant to operating objectives as broadly defined by the Federal
Managers’ Financial Integrity Act of 1982 (FMFIA), such as those controls relevant to ensuring
efficient operations. However, we noted certain matters involving the internal control over
financial reporting and its operation that we consider to be reportable conditions. Reportable
conditions involve matters coming to our attention relating to significant deficiencies in the
design or operation of the internal control over financial reporting that, in our judgment, could
adversely affect NASA’s ability to initiate, record, process, and report financial data consistent
with the assertions of management in the financial statements. The reportable conditions we
noted are described below.

A material weakness is a reportable condition in which the design or operation of one or more of
the internal control components does not reduce to a relatively low level the risk that
misstatements caused by error or fraud in amounts that would be material in relation to the
financial statements being audited may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions. Our consideration of the
internal control over financial reporting would not necessarily disclose all matters in the internal
control that might be reportable conditions and, accordingly, would not necessarily disclose all
reportable conditions that are also considered to be material weaknesses. However, of the
reportable conditions described below, we consider both matters noted—Financial Systems,
Analyses, and Oversight; and Enhancements Needed for Controls over Property, Plant, and
Equipment and Materials—to be material weaknesses.




                         Ernst & Young LLP is a member of Ernst & Young International, Ltd.
!@                                           Q   Ernst & Young LLP

Report on Internal Control
Page 2 of 22

                                MATERIAL WEAKNESSES


Financial Systems, Analyses, and Oversight (Modified Repeat Condition)

Overview

In fiscal year (FY) 2002, NASA initiated a seven-year agency-wide effort to provide a single
integrated suite of financial, project, contract, and human capital tools to help manage NASA’s
programs and prepare financial information on a timely basis consistent with evolving OMB
guidance. During FY 2003, NASA implemented an Integrated Financial Management Program
(IFMP) system (now referred to as the Integrated Enterprise Management Program [IEMP]
system), specifically the Core Financial Module. The Core Financial Module replaced ten
disparate center-level accounting systems and the NASA Headquarters accounting system, along
with approximately 120 ancillary subsystems in operation for the past two decades. This
conversion effort necessitated complex, extensive data cleanup, which was not always
successfully completed.

Beginning with its September 30, 2003 financial statements NASA’s management identified
significant errors resulting from the implementation of the IEMP system. From FY 2004
through FY 2006, NASA’s management continued to identify and resolve significant system
conversion and data integrity issues, implement internal control, and develop policies and
procedures. We observed progress in financial management processes in FY 2006, including

    •   Center Periodic Monitoring Package Submissions—During August 2005, NASA issued
        a policy requiring each center to perform a monthly process of standardized reviews and
        reconciliations of financial data to identify anomalies and out of balance scenarios to
        provide a NASA-wide structure for reconciliation and analysis of financial data. By the
        25th business day after month-end, the center’s Office of the Chief Financial Officer
        (OCFO) is required to review and certify to the completeness of the package and forward
        the results to the Headquarters OCFO for further review. All supporting documentation
        is maintained at each center.

    •   Fund Balance with Treasury—NASA continued to make progress in resolving its fund
        balance with Treasury imbalance. Corrective actions continued into the summer of FY
        2006 clearing prior reconciling items and resolving current unreconciled balances.

    •   Implementation of OMB A-123 Process—NASA contracted with an independent
        accounting firm to assist NASA in its implementation of requirements identified in OMB
        A-123, Management's Responsibility for Internal Control which requires each federal
        agency to establish, assess, correct, and report on internal control to improve the
        accountability and effectiveness of Federal programs and operations.
!@                                             Q   Ernst & Young LLP

Report on Internal Control
Page 3 of 22

    •   Improvement in Processes related to Environmental Liabilities—During FY 2006,
        NASA implemented updated policies, improved processes, and provided training to the
        Headquarters and Center technical and financial personnel who prepare the
        environmental liability estimates.

    •   Subsidiary Listing of Transactions to Support the General Ledger—Through a
        coordinated effort between the Competency Center and the Headquarters OCFO, a
        subsidiary listing of transactions for various real and nominal accounts was provided to
        support and analyze its general ledger.

    •   Theme Assets—During August 2006, NASA management met with the Accounting and
        Auditing Policy Committee (AAPC) of the Federal Accounting Standards Advisory
        Board (FASAB) to obtain guidance as to whether theme assets, totaling approximately
        $12 billion, should be capitalized or expensed as research and development costs.
        However, a formal decision will not be issued until after November 15, 2006.

    •   Financial Management System Certification and Accreditation—During FY 2006,
        NASA had its core financial system certified and accredited.

    •   Guidance and Training—The Headquarters OCFO has issued updated Financial
        Management Requirements (FMR) for the remaining five out of 19 chapters and
        provided additional training to Center and Headquarters personnel.

    •   Contractor Reported Excess Costs Over Obligations—During FY 2006, as part of its
        periodic monitoring and year-end closing processes, NASA developed alternative
        procedures that are expected by management to ensure that excess contractor reported
        costs and the corresponding obligations would be researched, recorded, and resolved in a
        timely fashion to ensure appropriate recording of accrued costs and related obligations to
        its general ledger.

However, significant financial management issues continue to impair NASA’s ability to
accumulate, analyze, and distribute reliable financial information. Our testing of internal control
continued to disclose certain weaknesses, including lack of integrated financial management
systems, incomplete efforts to resolve data integrity issues, and weaknesses in entity-wide
internal control which impaired NASA’s ability to report accurate financial information on a
timely basis. In many cases the progress noted above and related processes continued to be
developed in FY 2006 and will require additional refinements in FY 2007.

Routine Reconciliation, Analyses and Oversight Processes

The U.S. Government Accountability Office’s (GAO) Standards for Internal Control in the
Federal Government states that internal control activities help ensure that management’s
directives are carried out. The control activities should be effective and efficient in
!@                                             Q   Ernst & Young LLP

Report on Internal Control
Page 4 of 22

accomplishing the organization’s control objectives. Examples of control activities include top-
level reviews, reviews by management at the functional or activity level, segregation of duties,
proper execution of transactions and events, accurate and timely recording of transactions and
events, and appropriate documentation of transactions and internal control. During FY 2005, we
found that certain processes were not adequately performed to ensure differences were properly
identified, researched, and resolved in a timely manner and that account balances were complete
and accurate. Although we noted progress during FY 2006, continued emphasis on internal
control processes is needed to provide NASA the ability to report accurate financial information
in a timely fashion.

Periodic Monitoring Package Submission

At the end of FY 2005, NASA management developed an entity-wide structure for routine
reconciliation, analyses, and oversight processes. Throughout FY 2006 and on-going into FY
2007, NASA management continues to identify enhancements to the process. The periodic
monitoring package, a monthly process performed at the centers and forwarded to headquarters,
is designed to identify issues impacting the integrity of the centers’ financial management
information and provide a means for communication and tracking of the issues centrally within
the Headquarters OCFO. The process includes 23 separate analyses of significant financial
processes within the center including, for example, fund balance with Treasury, accounts
receivable and payable, budgetary, and contractor reporting. Each analysis is required to
include a coversheet depicting the preparer’s and reviewer’s sign off, whether exceptions exist,
and what the exceptions are. The coversheet submissions are due to the Headquarters’ OCFO by
the 25th business day after the end of each month and require a certification from the center
Chief Financial Officer (CFO) indicating their review. Our review of these submissions and the
related support maintained at the center identified progress at the centers in identifying issues,
including system configuration concerns, continuing data integrity issues—dating back prior to
the system conversion in 2003, and other issues requiring immediate attention by NASA
management. However, our review of these packages also identified certain weaknesses in
processes that could impair NASA’s ability to correct material errors in a timely fashion.
Specific concerns are as follows:

   •   Our review of the centers’ submissions and the supporting documentation maintained at
       the centers identified inconsistencies in the procedures performed, the reports utilized,
       and the results provided among the various centers. Our review of NASA’s FMR
       identified general guidelines as to the reconciliation to be performed, but is not specific
       as to the reports to be used or the specific procedures to be performed. Per discussions
       with Headquarters OCFO, additional training, site visits by the Headquarters submission
       reviewers, and improved guidance are expected during FY 2007.

   •   During our review of the coversheets and the related supporting documentation, we noted
       that although the coversheet would indicate no exceptions, the supporting documentation
       would identify exceptions that were not reported to Headquarters. Additionally, we noted
       that certain centers did not disclose certain discrepancies because they deemed them as
!@                                              Q   Ernst & Young LLP

Report on Internal Control
Page 5 of 22

       agency-level issues and were out of the control of the center. Per center management,
       formal guidance is needed to explain what is to be identified as an exception on the
       coversheet.

   •   We noted certain issues within the centers’ submissions that had been identified for
       several months but had not been resolved in a timely fashion. Per discussions with center
       management, in most cases, the issues had been forwarded to headquarters either with a
       service request or the need for headquarters guidance but the center was awaiting
       guidance. Certain centers indicated that some of the delays occur due to not knowing
       who to contact at headquarters—primarily due to turnover in headquarters positions. Per
       discussions with headquarters personnel, as of October 2, 2006, there was a backlog of
       more than 78 service requests. Headquarters personnel indicated that procedures are still
       evolving and as a result certain items are still being worked. During FY 2007,
       headquarters OCFO personnel indicated that they are implementing procedures to resolve
       many of these items. Currently, other than such service requests, issues identified by the
       centers are not centrally tracked to determine the extent of the issue.

Fund Balance with Treasury

Treasury regulations require that each federal entity ensure that it reconciles, on a monthly basis,
its financial records with Treasury’s records and that it promptly resolves differences. If this
reconciliation is not adequately performed, loss, fraud, and irregularities could occur and not be
promptly detected, and/or financial reports that are inaccurate may be prepared and used in
decision-making.

Throughout FY 2003, NASA implemented, in phases, a commercial off-the-shelf, agency-wide,
integrated financial management system that replaced ten separate accounting systems in
operation at NASA centers. This effort, which involved converting accounting data in the
“legacy” accounting systems to a new accounting system, created complex accounting issues for
FY 2003. Consequently, as noted in the FY 2003 audit report, as well as in our subsequent audit
reports, NASA posted year-end adjustments outside its Core Financial Module, which indicated
that the difference between its fund balance with Treasury balance and Treasury’s balance was
significantly greater than had been presented in its year-end reconciliation. In addition, these
adjustments did not provide sufficient documentary evidence to explain the linkage between the
adjustments and the unreconciled differences identified on headquarters’ fund balance with
Treasury reconciliations as of September 30, 2003.

Between FY 2003 and the third quarter of FY 2006, NASA management expended significant
effort analyzing its differences related to the conversion and refining its procedures to ensure
reconciliations for current activity going forward were performed properly to resolve reconciling
differences in a timely fashion. On a monthly basis, these differences are now required to be
reported to Headquarters’ Office of the Chief Financial Officer via the periodic monitoring
submission to ensure appropriate resolution. During June 2006, Headquarters’ OCFO in
!@                                            Q   Ernst & Young LLP

Report on Internal Control
Page 6 of 22

conjunction with the centers made the decision to write-off residual pre-conversion differences
of $22 million.

Our review of current year reconciliations identified progress in the preparation and more timely
identification and resolution of differences arising from current period transactions. As of June
30, 2006, budget clearing, suspense, and unreconciled differences totaled an absolute value of
$92.6 million. However, although progress was noted, we continued to identify old outstanding
items greater than six months old. Additionally, one of NASA headquarters’ reconciliation steps
to understanding these differences includes identifying differences between amounts in the
Central Resources Control System (CRCS) and the Core Financial Module. CRCS is the
database used by OCFO for budget control by establishing resource plans for all levels. Each
month, Resources Authority Warrants (NF 506) are issued from headquarters to centers and
monthly activities are posted to CRCS. NASA personnel indicated differences between CRCS
and the Core Financial Module occur because of timing differences on entering funding data and
fund allocations in CRCS and the Core Financial Module between headquarters and the centers.

In preparation for the financial management system upgrade—expected to occur in October of
FY 2007—NASA management took additional efforts to clear out their suspense, budget
clearing, and unreconciled differences during the fourth quarter of FY 2006. At September 30,
2006, we were informed that an absolute value of differences for NASA in such accounts was
$10.7 million.

Budgetary Analyses

Within the federal government, the budget is a primary financial planning and control tool.
OMB Circular A-11, Preparation, Submission and Execution of the Budget, implements the
requirements of budget formulation and execution including requirements related to
apportionments, accounting systems to control spending, proper recording of obligations, and
closing accounts. For internal control purposes, budgetary monitoring is a key management
control that, if implemented correctly, identifies cost overruns and potential material
misstatements in a timely fashion.

Although we determined that reviews of the budget were being performed at the center and
mission directorate level, our review of the budgetary status of funds report identified some
negative balances whereby costs appeared to exceed obligations. Additionally, we noted that the
centers used different reports to assess funds availability as compared to headquarters. Many of
the centers indicated that the negative balances were awaiting correction or the balances in the
report could not be relied upon because the amount was based on estimates. The cost over
obligations edits (discussed later under “Efforts Needed to Resolve Data Integrity Concerns”),
disaggregated estimation process used for certain contract accruals, and CRCS to core financial
module process noted above can greatly complicate the review of status of funds reports, and
could desensitize reviewers to problems normally inherent in anomalous balances.
!@                                             Q   Ernst & Young LLP

Report on Internal Control
Page 7 of 22

In the past few years, NASA has had more than one possible anti-deficiency act violation. The
Office of Inspector General reported there were anti-deficiency violations and management
agreed to report as required. To ensure these violations do not continue, enhanced budgetary
monitoring processes are required.

Financial Statement Preparation Processes

Our review of NASA’s financial statement preparation process identified certain issues
impacting NASA’s ability to effectively accumulate, assemble, and analyze information to
timely develop its financial statements on a routine and recurring basis. Currently, although
processes continue to be improved, data integrity issues, systems that are not fully integrated and
evolving account reconciliation and periodic analysis processes continue to provide challenges in
the development of auditable financial statements. The following represent issues identified
during the financial statement preparation process:

   •   The requirement that each agency submit its Performance and Accountability Report
       (PAR) by approximately November 15 has created challenges for all agencies. The
       completed PAR for NASA was not available until the last week of October which did not
       provide sufficient time to meet deadlines for completion of the audit, review and
       submission processes. Many agencies have accelerated their PAR process by providing
       performance and other information as of an earlier date, and holding only very limited
       sections open for updates of information. Further, for both interim and year-end financial
       statements, certain analyses were not performed by OCFO until after the financial
       statements were submitted for audit purposes, suggesting that review processes may not
       be fully effective. Finally, although we were informed and documentation indicated that
       the PAR and supporting analyses had been through a rigorous review process prior to our
       audit, we noted that mistakes and errors were missed by the review process and that much
       of the preparation and many reviews were performed with contractor assistance. NASA
       personnel had limited capability to describe how balances reflected in the statements
       were derived, one aspect of an effective supervision and review process.

   •   Although NASA had indicated that it performed and upper management had reviewed its
       quarterly fluctuation analyses of its financial information to identify unusual balances,
       our review of NASA’s analysis of its September 30, 2006 financial statements identified
       inconsistencies for which we required further explanation. Upon further inquiry, NASA
       indicated that due to previous data integrity issues, the balances they were comparing
       created variances that could not be explained. Management expected a better analysis
       would be available in FY 2007.

   •   For the third quarter financial statements, NASA had not reconciled all of its intra-
       governmental balances with its trading partners. Our review of the Treasury difference
       report identified over $200 million for which NASA could not identify the reasons for
       differences with its trading partners. Further, we determined that intra-NASA
       transactions had not been eliminated from the initial draft of the financial statements.
!@                                             Q   Ernst & Young LLP

Report on Internal Control
Page 8 of 22

       Many of these transactions related to services provided to the centers from the new
       shared service center.

   •   For both interim and year-end financial statements, we noted that financial statements
       submitted to OMB and for audit purposes were not compliant with OMB Circular A-136,
       Financial Reporting Requirements. We noted that certain disclosures, including those for
       net costs, undelivered orders, and intra-governmental balances had not been updated to
       ensure consistency with new guidance. Checklists and other tools (an annotated copy of
       A-136) which can help ensure that reports are appropriately prepared were not used
       effectively to identify the requirements of OMB Circular A-136 to ensure compliance.

   •   We noted that adequate documentation to support certain transactions was not readily
       available. Our testing of transactions identified several items where we did not receive
       sufficient information to determine if the transaction was valid. For example, NASA
       could not provide documentation to support its assertion that certain accruals were not
       necessary to be recorded in its financial statements as of September 30, 2006. According
       to OCFO management, NASA implemented processes intended to minimize the extent of
       required accruals, and did not record such accruals. We were unable to assess the
       effectiveness of this process, and whether grantees and contractors accelerated all billings
       for services rendered through September 30th by September 27th as the systems were not
       operating during conversion to the new financial management system. To the extent such
       processes are not consistent with Federal Acquisition Regulations (FAR) or cost
       principles associated with execution of grants, it is possible that grantees and contractors
       would not have advance billed NASA for services that they would normally not draw
       down funds for or invoice for until late October or November. Depending on the results
       seen by NASA in the beginning of FY 2007 through a review of subsequent
       disbursements, it may be possible to modify this approach to incorporate and estimate for
       any remaining necessary accrual.

Efforts Needed to Resolve Data Integrity Concerns

NASA’s management continues to identify data integrity issues in the Core Financial Module
that impairs its ability to prepare accurate and complete financial statements. Data integrity
issues identified during FY 2003 and prior continue to impair FY 2006 account balances.
Although much progress was seen during FY 2006, our testing continues to identify similar
issues. Additionally, although the centers were able to provide subsidiary listings; the listings
are frequently being generated from non-routine processes, not directly from the financial
management module. Specific concerns noted include the following:

   •   During FY 2005, we reported that NASA designed its new Core Financial Module to
       include a system edit whereby, if costs (and the corresponding liabilities) are greater than
       the associated obligations, the difference would not be recorded in NASA’s general
       ledger but rather maintained outside of the general ledger system. Instead, the
       differences were adjusted at the contract/project level by posting a liability to match the
!@                                             Q   Ernst & Young LLP

Report on Internal Control
Page 9 of 22

       excess costs. Statement of Federal Financial Accounting Standards (SFFAS) No. 1,
       Accounting for Selected Assets and Liabilities, SFFAS No. 4, Managerial Cost
       Accounting Concepts & Standards, and NASA’s FMRs require costs to be accrued in the
       period in which they are incurred and any corresponding liability to be recorded as an
       account payable. During FY 2006, as part of its periodic monitoring and year-end
       closing processes, NASA developed alternative procedures that are expected by
       management to ensure that excess contractor reported costs and the corresponding
       obligations would be researched, recorded, and resolved in a timely fashion.

       As part of its periodic monitoring process, management indicated that the center OCFO is
       expected to work closely with the appropriate procurement official, the project manager,
       and the vendor to initiate the necessary contract funding modification actions to record
       timely increases to obligations, record excess costs, resolve mistakes in vendor reporting,
       obtain explanations for cost adjustments, and to validate the processes the vendor will
       have in place to prevent over costing in the future. Once the modification is identified,
       the center OCFO personnel should record the appropriate transactions to ensure amounts
       have been reported in the general ledger system. If amounts are not corrected by quarter-
       end, the center should report the status through its monthly periodic monitoring process
       to Headquarters’ OCFO for assistance.

       At year-end, Headquarters’ OCFO runs a report that identifies by fund center those “costs
       over obligation” amounts that have not been resolved nor recorded in the general ledger.
       Headquarters’ OCFO indicated that they then net the balances for each fund center and
       process top-side entries to the general ledger to either accrue the costs or obligations or
       process the downward cost adjustment. These entries are expected to be reversed in the
       first quarter of the following fiscal year so that the centers can perform the appropriate
       research within the normal quarterly process. It is our understanding that certain accruals
       of costs and obligations may be against expired funds. Management believes this process
       is in accordance with federal budgetary requirements.

       Due to the timing of the new processes being implemented, we were unable to determine
       the effectiveness of these processes during FY 2006 to record accruals for costs that were
       in excess of recorded obligations and related obligations and downward adjustments that
       were necessary to record such costs in the general ledger at year-end.

   •   We noted numerous grants and contracts which had periods of performance prior to FY
       2006 which had not officially been closed due to limited resources available for follow-
       up of missing or incomplete documentation from the vendor/grantee and a significant
       backlog of large amounts awaiting de-obligation. For several years, NASA has utilized
       an outside contractor to resolve the large backlog. For grants, because of the delay of
       close-out within the grant system, allocation of current activity costs were being posted as
       current expense against the expired grant obligation. As of March 31, 2006, we noted
       over 4,000 grants and 3,000 contracts for FY 2005 and prior which were past their period
       of performance still awaiting closeout and de-obligation. Further, we noted several grant
!@                                            Q   Ernst & Young LLP

Report on Internal Control
Page 10 of 22

       and contract sample items where requested supporting documentation was not available
       or not part of the official file.

   •   Although the centers use financial management and ad-hoc reports for management
       oversight purposes, such as aging analyses and collection initiatives, we noted during our
       testing that numerous accounts receivable were related to balances that were greater than
       one year old. Many of the balances relate to current and former employees, vendor
       amounts, conversion issues, and balances with other government agencies. The number
       of employee related items and their myriad causes are of note and merit rigorous follow
       up. As of March 31, 2006, we noted over 16% of accounts receivable or approximately
       $28 million greater than one year old. Additionally, we noted inconsistencies among the
       centers as to the timing of when amounts are posted to the allowance for doubtful
       accounts.

   •   Although the periodic monitoring package includes a quarterly step to review
       unliquidated obligations and accounts payable to ensure balances that are recorded in
       NASA’s financial system are valid and supportable, we noted that the centers do not
       currently age their undelivered orders or their accounts payable to identify old balances
       that may require follow-up or de-obligation. As of June 30, 2006, we noted numerous
       unliquidated obligations and accounts payable that were greater than one year old.

   •   We noted certain transactions were recorded utilizing budget object classes inconsistent
       with OMB Circular A-11 guidance. During our testing of grants and contracts, while we
       noted certain contracts recorded to the grant and subsidy object class, certain contracts
       were recorded to budget classes consistent with grants.

In some cases, individual items selected for audit testing were further researched and actions
were taken by NASA management to follow-up on such items and appropriately resolve them.
Similar efforts are needed for numerous other old items.

Processes in Estimating NASA’s Environmental Liability Require Enhancement

During our review of NASA’s unfunded environmental liability (UEL) totaling $893 million as
of September 30, 2006 and related disclosures to the financial statements, we noted that NASA
has made progress in resolving several weaknesses that impeded its ability to generate an
auditable UEL estimate. Specifically, progress has been made in documenting the UEL process
and training the Remedial Project Managers (RPMs) that prepare the estimates. However,
NASA has not validated the Integrated Data Evaluation and Analysis Library (IDEAL) software
program that it uses to estimate a portion of its UEL estimate. Additionally, while NASA has
begun to integrate the OCFO into the UEL estimation process, additional integration is required.
Finally, NASA should assess its reporting and disclosure against other similarly situated federal
entities and commercial enterprises as an aid in ensuring that disclosures are meaningful.
!@                                                       Q   Ernst & Young LLP

Report on Internal Control
Page 11 of 22

IDEAL – The IDEAL software application is a parametric cost-estimating model that estimates
the cost of environmental remediation liabilities based on average cost experiences for similar
conditions. NASA uses these IDEAL algorithms to estimate approximately $190 million of its
UEL. In addition, IDEAL aggregates and reports on all UEL estimates even if they were
prepared externally to IDEAL. As previously identified in our prior reports, the IDEAL model
has not undergone an independent software verification and validation. While the inputs to the
IDEAL model can be verified, the output of the equations (e.g., the cost estimate) cannot be
verified without performing a zero-cost re-estimation of the remediation scenario.

In addition, as the IDEAL data files are part of NASA’s support for its UEL estimate, we
reviewed the process and noted several other control weaknesses in the application.

    •    Data Security – The current version of IDEAL is a host/client application. NASA’s users
         enter data into a desktop application that transmits the data to a third-party service
         contractor. This contractor then processes the data and returns it to NASA over the
         Internet. During our review we were notified that while the password authentication is
         secure, all other data transmissions are not.

    •    SAS 701 – NASA’s third-party service contractor manages the host IDEAL application
         and processes the calculation of the UEL estimate. We noted that NASA has not
         evaluated the controls between itself and its service providers through either a SAS 70 or
         other mechanism, and did not do so as part of the OMB Circular A-123 process.

    •    User Defined Interface (UDI) – As noted in prior years, NASA’s users have complete
         access to the parametric equations, cost tables, warning limits and other parameters in the
         model through the UDI. While a report has been developed that would highlight when
         the center/facility specific default parameters were modified, it would not identify if any
         of the global parameters/equations in any of the models were modified.

    •    Documentation – We noted weaknesses in the printed reports generated by IDEAL as
         they did not provide a complete record of the information contained in the IDEAL data
         files. NASA indicated that the electronic data files in IDEAL were the official record for
         the UEL estimates included in its financial statements. Because IDEAL is a host/client
         application, NASA does not maintain control over the host application, and therefore,
         updates and changes made to the host program will alter the processing of NASA’s client
         data since it is recomputed every time it is processed without any archive or electronic
         audit trail. Electronic IDEAL data files archived by NASA as part of the FY 2006 audit

1
  A Statement of Auditing Standards No. 70, Reports on the Processing of Transactions by Service Organizations
(SAS 70) report provides for a service organization's description of its controls that may be relevant to a client's
internal control, on whether such controls had been placed in operation as of a specific date, on whether they are
suitably designed to achieve specified control objectives, and on whether the controls that were tested were
operating with sufficient effectiveness to provide reasonable, but not absolute, assurance that the related control
objectives were achieved during the period specified.
!@                                             Q   Ernst & Young LLP

Report on Internal Control
Page 12 of 22

       might provide different results when processed by the IDEAL host application in the
       future.

       During our online review of entries within electronic files, we noted that numerous
       warning and error messages were not addressed in the online documentation as to the
       cause or reconciliation. For example, IDEAL might provide the user with a warning or
       error that the limits in a parametric equation were being exceeded. While overriding
       these warnings might be acceptable, there was typically no documentation to support the
       override decision.

OCFO Involvement – During FY 2006 NASA made progress in implementing a quality review
function that was independent of the centers/facilities that prepared the UEL estimate. It also
began to integrate the OCFO into the training of the RPMs and the independent review function.
In addition, during our review we noted improvement in the process that the centers/facilities
used in preparation of the estimate. However, during our review we noted several accounting
matters that might have been rectified earlier with additional center OCFO involvement. For
example,

   •   Year-to-Year Changes - While NASA has begun tracking the technical reasons for
       changes in the year-to-year UEL estimates we noted weaknesses in tracking and
       analyzing changes in accordance with the accounting literature.

   •   Documentation – As part of the new quality review process, the center CFOs statistically
       sample and review IDEAL documentation. However, it was not always apparent what
       documentation the OCFO considered during their review. Because of software
       limitations, certain documentation was not attached in IDEAL as originally planned nor
       was a note included in IDEAL as to what was considered the official documentation.
       Finally, we noted discrepancies in the effective dates and versions of estimates in
       IDEAL.

Financial Management Systems Not in Substantial Compliance with FFMIA

The NASA financial management systems are not substantially compliant with the Federal
Financial Management Improvement Act (FFMIA) of 1996. FFMIA requires agencies to
implement and maintain financial management systems that comply with federal financial
management systems requirements. More specifically, FFMIA requires federal agencies to have
an integrated financial management system that provides effective and efficient interrelationships
between software, hardware, personnel, procedures, controls, and data contained within the
systems. The financial management system continues to impair NASA’s and the centers’ abilities
to adequately support and analyze account balances reported.

Although NASA implemented a commercial off-the-shelf financial module approved by the
former Joint Financial Management Improvement Program (JFMIP), certain aspects of the
NASA accounting system lack integration and do not conform to the requirements. NASA’s
!@                                            Q   Ernst & Young LLP

Report on Internal Control
Page 13 of 22

management continues to identify configuration issues in the Core Financial Module that
resulted in inappropriate transactional postings. Finally, certain subsidiary systems, including
systems used to account for property, plant, and equipment, the largest NASA asset, are not
integrated with the Core Financial Module. Specific weaknesses noted include the following:

   •   Certain subsidiary systems, including all property systems (i.e., NEMS, NRPDB, and
       CHATS), are not integrated with the Core Financial Module and are not complemented
       by sufficient manual preventative and detect type controls.

   •   NASA’s management continued to identify certain transactions that are being posted
       incorrectly due to improper configuration or design within the Core Financial Module.
       For example, during our review of the centers’ periodic monitoring packages, the centers
       identified abnormal balances within the general ledger. The centers indicated that they
       believed the differences were caused by the design of the system and that system requests
       had been forwarded to headquarters for consideration to resolve the various issues.
       Additionally, during our review of the reconciliation of the financial information (FI)
       module to the funds management (FM) module, both residing within the IEMP, we noted
       that discrepancies existed due to journal entries not being properly mapped to both
       modules when posted.

   •   Although the amount is not material, the second quarter balance sheet generated from the
       Core Financial Module did not balance, meaning that assets did not agree to liabilities
       plus net position. Adjustments were made outside the system to correct this prior to
       submission of the quarterly statements to OMB.

   •   The Core Financial Module was still unable to provide a breakdown of costs by the four
       mission directorates which NASA has identified as significant segments for FY 2005.
       This is not consistent with the requirements of SFFAS No. 4, which calls for presentation
       of costs by responsibility segment for each fiscal year presented.

   •   Due to systematic limitations, NASA centers continue to use alternative approaches to
       ensure data and financial management information is readily available to make critical
       decisions. These alternative approaches are inconsistent between centers and may cause
       varied results in the accuracy of reporting from the centers to headquarters. For example,
       during our center visits, we noted that some centers use manually created spreadsheets to
       track invoice due dates to ensure compliance with Prompt Payment Act requirements.
       However, we noted that other centers rely on IEMP to track the payment due dates for
       compliance.

We noted that NASA is in the process of implementing a software version update which OCFO
believes will address some of the systems implementation issues related to the IEMP.
!@                                              Q   Ernst & Young LLP

Report on Internal Control
Page 14 of 22

Weaknesses in Information Technology General and Application Controls

Several access and segregation of duties issues were noted within the IEMP environment. The
level of risk associated with these information technology issues depends in part upon the extent
to which financial-related compensating controls (such as reconciliations and data integrity
reviews of output) are in place and operating effectively throughout the audit period. Certain
controls designed to detect errors or inappropriate processing may also not be executed in a
manner which can be expected to identify errors, which, while perhaps not material to the
financial statements as a whole, may subject NASA to risks regarding safeguarding of assets.
Within the context of the overall weaknesses identified in the control environment referenced in
the accompanying comments and although NASA has made progress in addressing and resolving
prior year information technology findings, these information technology-related issues along
with issues noted by NASA OIG in various engagements and their ongoing review of the SAP
Version Update (SVU) project merit continued management focus.

                             *      *       *          *        *       *

Due to the severity of these issues, an integrated financial system, a sufficient number of
properly trained personnel, well-documented policies and procedures, stronger leadership from
the Headquarters’ Office of the Chief Financial Officer, and a strong oversight function are
needed to ensure that periodic analyses and reconciliations are completed to detect and resolve
errors and irregularities in a timely manner.


Recommendation

We recommend that NASA continue to develop and refine its financial management systems and
processes to improve its accounting, analysis, and oversight of financial management activity.
Specifically, we recommend that NASA:

   •   Continue to strengthen controls related to its entity-wide structure for account
       reconciliation, analyses and oversight by building consistency among centers, providing
       more in-depth guidance and training for financial personnel, strengthen headquarters
       oversight by visiting the centers, periodically requesting the supporting documentation to
       compare to the coversheets, and to improve communication so that issues may be
       resolved in a more timely manner.

   •   Continue to improve its current Fund Balance with Treasury procedures to ensure that all
       reconciling items are thoroughly researched, properly documented, timely resolved, and
       reviewed by appropriate center and headquarters OCFO personnel.

   •   Continue to build on budgetary reviews to ensure that costs incurred are within budget
       and the potential overruns are identified in a more timely fashion.
!@                                             Q   Ernst & Young LLP

Report on Internal Control
Page 15 of 22

   •   Continue to improve its financial reporting and internal quality review procedures to
       reasonably assure that information presented in the Performance and Accountability
       Report is accurate and is consistent with the requirements of OMB Circular A-136,
       Financial Reporting Requirements, including rigorous use of checklist and supervisory
       review processes.

   •   Ensure that the Core Financial Module has been configured to provide a breakdown of
       net costs consistent with programs identified in NASA’s strategic plan and in the
       Management’s Discussion and Analysis (MD&A) section of the financial statements for
       both fiscal years presented.

   •   Continue to enhance its procedures related to confirming intra-governmental balances
       with its trading partners so that differences identified through the OMB quarterly process
       do not exist.

   •   Ensure that systems used to prepare the financial statements are complete and have been
       sufficiently tested prior to interim and year-end reporting dates. NASA should continue
       to validate its data within the Core Financial Module to resolve issues with data integrity
       that date back prior to the system conversion in FY 2003 to ensure that data is accurate
       and complete.

   •   Develop reports from the Core Financial Module to facilitate reviews and ensure that
       agings of transactions and open items, unliquidated obligations, grants, and other key
       areas are periodically assessed, researched, and resolved. Additionally, NASA should
       improve its process to more timely close expired travel, grants, and contracts and develop
       refined guidance on accounts receivable, the allowance for doubtful accounts, and the
       point when accounts receivable is either referred for collection initiatives or written off.

   •   Continue to devise short-term and long-term resolutions to systematic and integration
       issues that complicate use of the IEMP.

   •   Continue to resolve issues identified in the general and application controls surrounding
       its financial management systems. Additionally, in light of the financial management
       system upgrade, we recommend that NASA monitor that its internal control, including
       periodic reconciliations and analysis, are performed to ensure that further data conversion
       and other issues do not lead to difficulties in processing transactions and preparing
       accurate reports in the months and possibly the years to come.

   •   Continue to focus on filling key vacancies within the financial management organization
       to enhance overall performance and develop a core team of highly qualified individuals
       with experience in NASA’s financial management processes.
!@                                              Q   Ernst & Young LLP

Report on Internal Control
Page 16 of 22

   •   Continue to provide training for personnel – at Headquarters and center levels –to ensure
       that they understand their roles in processing transactions, performing account analyses
       and reconciliations, maintaining supporting documentation, and updating their knowledge
       of financial reporting requirements. Additionally, NASA should update guidance to
       ensure specific guidelines are documented as to the source of data, what comprises an
       exception/difference, required follow-up with timetables, and documentation retention
       policies.

Finally, as it relates to the estimation of environmental liabilities, we believe that estimating
models and tools such as IDEAL are an accepted practice for improving the standardization of
engineering estimates. Therefore, we recommend that if NASA continues to use IDEAL as part
of its UEL estimation process, that it: (1) complete the verification and validation of the
program; (2) encourage the IDEAL contractor to obtain a Type II SAS 70 from an independent
third party service provider to demonstrate the operating effectiveness of its internal controls; (3)
improve the security and controls of the application; and (4) develop a process to ensure
consistent year-to-year audit trails and documentation.

We recommend continued involvement of the OCFO in the UEL process with specific focus on
accounting related matters such as disclosure and documentation. We believe the center OCFO
review can be enhanced with the inclusion of accounting related matters in its checklists. The
OCFO review checklist should include a review of the determination that IDEAL’s parametric
data provides the best available estimate or that actual cost data is available that would provide a
better estimate. We also recommend that NASA’s OCFO continue to self-assess the UEL
estimation and aggregation process to identify and correct remaining weaknesses in the UEL
process.

Enhancements Needed for Controls Over Property, Plant, and Equipment and Materials
(Modified Repeat Condition)

Consistent with prior year audit reports, our review of property, plant, and equipment (PP&E),
totaling approximately $33.2 billion, identified serious weaknesses in internal control that, if not
corrected, could prevent material misstatements from being detected and corrected in a timely
manner. As stated in the prior year audit reports, NASA’s current process for recognizing and
accounting for fixed assets relies primarily on a retrospective review of disbursements to
determine amounts which should be capitalized and continues to be heavily dependent on
activities at its contractors to recognize any assets created at its contractors. Currently, NASA
expenses all costs (except for certain construction of NASA-held real property) and then
performs a review of the transactions to determine which costs should be capitalized. The
subsequent review and dependence on contractor reporting increases the risk that related costs
will not be properly captured and capitalized. Until NASA successfully implements an
integrated system for reporting PP&E, and develops a methodology to identify costs that need to
be capitalized starting at the budget/procurement cycle through to the processing and disbursing
of funds as the transaction is processed, NASA will continue to experience difficulties in
recording property-related balances and transactions. During fiscal year 2006, we were informed
!@                                             Q   Ernst & Young LLP

Report on Internal Control
Page 17 of 22

that NASA has completed the first phase of its corrective action plan to flowchart and document
the current business processes and procedures for each major category of PP&E. Somewhat
simultaneously, NASA identified changes that needed to be made to existing policies Agency-
wide and formed a cross-functional team to participate in working groups to re-engineer NASA’s
current processes and procedures and identify solutions to gaps in the PP&E lifecycle
management. Pending implementation and acceptance of new policies and processes by all
cross-functional departments within the agency of such overarching solutions, further emphasis
on internal and external processes at headquarters, the centers, and the contractor locations is
needed to ensure that amounts reported in its financial statements are reliable.

During our FY 2006 testing, we continued to note evidence of significant weaknesses in the
property area. The weaknesses we noted during FY 2006, most of which are consistent with last
year’s audit report, fundamentally flow from not determining at the point of budget formulation,
obligation recognition, contract development, accounts payable recognition, or disbursement the
amounts of property NASA expects to buy, has contracted for, or has purchased. Rather, NASA
waits until the entire transaction cycle is complete to obtain disbursement data for capitalization
or, in the case of contractors, expects their contractors to do so. Insufficient internal controls
surrounding contractor-held PP&E, NASA-held theme assets, NASA-held work in progress
(WIP), and NASA-held real and personal property are addressed below:

Contractor-Held Property, Plant & Equipment

The reliance upon NASA’s contractors to report property values at periodic intervals during the
year without robust agency-wide detect controls to ensure the reliability and validity of those
property values may increase the probability of errors and deficiencies not being detected by
NASA or reported by contractors. Throughout the year, the Headquarters OCFO’s property
branch personnel do perform certain analytical analyses of property balances and transactions
reported by NASA’s largest contractors that report monthly in Contractor-Held Asset Tracking
System (CHATS). This monitoring process, however, currently lacks integration of NASA’s
procurement and scientific community, with whom contractor accountability primarily resides,
and does not include a reconciliation to the costs being incurred by these contractors via the
monthly NF 533 reporting process to the property balances reported monthly in CHATS and
annually via the NF 1018. Although the OCFO utilizes the Defense Contract Audit Agency
(DCAA) as its primary quality assurance mechanism over NASA’s contractors, the procedures
that DCAA performed on the June 30, 2006 property balances and a sample of fiscal year 2006
transactions cannot alone be relied upon by NASA management to ensure the reliability and
validity of contractor-held property values.


Recommendation

   •   We recommend that NASA fundamentally revisit its approach to capitalizing contractor-
       held property by documenting, analyzing, and implementing robust control changes from
       end to end, including the involvement of the procurement and scientific community.
!@                                            Q   Ernst & Young LLP

Report on Internal Control
Page 18 of 22

   •   We continue to recommend that all NASA obligation documents and expenditures be
       coded to identify whether they relate to a property acquisition to create a record for
       comparison to recorded property transactions and the CHATS subsidiary ledger. For
       contractor-held property, this would also include developing a method for reconciling
       contractor costs incurred via the monthly NF 533 reporting process to those contractor-
       held property balances reported monthly in CHATS and annually via the NF 1018.

NASA-Held Theme Assets Operational and WIP

Beginning in FY 2004 and continuing throughout FY 2006, NASA has undertaken a project to
review its policies (both accounting and procedural) with respect to theme assets to identify the
specific types of costs that should be capitalized and those that should be expensed.

During fiscal years 2005 and 2006, NASA revisited its process to account for theme assets and
developed a number of approaches, most recently positing its current position to the AAPC of
the FASAB that nearly $12 billion of the theme asset activity is fundamentally research and
development and that such costs should be expensed. The current position contrasts with earlier
views that none or a small part of such activity constituted research and development, and is a
significant potential change from prior approaches which led NASA to capitalize billions of
dollars in such items. In any case, NASA will face challenges in addressing the question of
whether certain land based assets so categorized with the theme assets that travel into space are
so unique that the remaining technology and hardware are of no future use and cannot be
salvaged or used in other research and development projects (a determining factor in NASA’s
proposed new approach on assessing whether costs should be capitalized). NASA management
hopes to resolve the accounting policy-related aspects of its theme asset accounting independent
of potentially longer-term needs to develop appropriate systems to capture such costs (however
ultimately categorized). The specific rules for the AAPC to issue authoritative guidance which
NASA management could follow in resolving the accounting issue is through a technical release
approved by the FASAB, which has not yet occurred.

Management has begun to address the procedural matter, as discussed in previous years’ reports,
in establishing new policies by incorporating financial and engineering authoritative guidance as
well as NASA program/project management policy to ensure consistent application and
documentation. As one aspect of addressing the accounting issue over which costs are expensed
versus capitalized for theme assets in progress and those yet to be undertaken, management
implemented October 1, 2005, the revised the engineering authoritative guidance contained in
NASA Procedural Requirement 7120.5C, NASA Program and Project Management Processes
and Requirements. This requirement defined the four management requirements for formulating,
approving, implementing, and evaluating NASA programs and projects and provided for an
aligned budget structure and technical work breakdown structure within the Core Financial
Module. These initiatives seem to be moving NASA in the right direction for identification of
the component parts of theme assets throughout its life cycle. However, it is unclear as of yet
how the alignment and the specificity of these pre-established work breakdown structure
elements will correlate to the accounting for these costs under the authoritative literature.
!@                                             Q   Ernst & Young LLP

Report on Internal Control
Page 19 of 22

Furthermore, NASA management has not yet demonstrated how these new requirements, when
fully operational, will provide sufficient specificity in NASA’s purchasing activity to facilitate
tracking and reporting of all types of property acquisition activity, including the subset of such
activity related to theme assets as projects are initiated and disbursements are made. Prior
NASA efforts to obtain and retain documentation to support these assets under its existing policy
created challenges.


Recommendation

   •   Once the process of exposing NASA’s position relating to the accounting for theme
       assets to the authoritative standard setters has come to an end, we recommend that
       management act upon the final technical rulings issued by the AAPC and/or FASAB as
       promulgated by their charters.

   •   We continue to recommend that all NASA obligation documents and expenditures be
       coded to identify whether they relate to a theme asset property-related acquisition to
       create a record for comparison to recorded property transactions and the work breakdown
       structure (WBS) of costs incurred that result in capitalized theme assets. This would also
       include developing a method for reconciling costs incurred via the monthly NF 533
       reporting process and recorded by WBS elements in the core financial module related to
       theme assets under construction (work-in-process) to the amounts reported monthly in
       CHATS or annually in the NF 1018, as well as the theme asset spreadsheet maintained by
       headquarters.

NASA-Held Real and Personal Property

During our FY 2006 testing, we again noted transactions that were not recorded at the
appropriate value based upon the final amount paid to the vendor/contractor (i.e., a “three-way
match” between the purchase order, shipping document, and invoice was not performed by
NASA personnel), transactions were not recorded in the correct month and/or fiscal year based
upon the date of authorized acceptance of the property, the initiation of transactions lacked
evidence of written authorization or lacked required supporting evidence (i.e. invoices,
contracts), and monthly journal vouchers lacked evidence of a supervisory review. NASA
management is reliant upon a monthly evaluation to determine which assets should be
capitalized to record these transactions and maintains separate subsidiary ledgers which are not
interfaced directly with the Core Financial Module. Management records these property, plant
and equipment transactions through a manual journal voucher process, yet there is no formal
policy that requires supervisory review and signoff evidencing the approval of these entries prior
to their posting in the Core Financial Module. It was noted that during the fiscal year,
management recorded approximately $89 million (net) of adjustments for prior years’ property
transactions for such items as equipment found during routine inventory processes, components
of buildings removed and no longer in use revealed during deferred maintenance reviews, and
the discovery of manual input errors on key authorizing documents, such as one for $133
!@                                             Q   Ernst & Young LLP

Report on Internal Control
Page 20 of 22

million, a result of an extra digit, not found when the transaction was originally recorded. There
were also adjustments recorded at the headquarters’ level relating to depreciation expense
totaling approximately $24 million. All of these transactions were recorded through the current
period operations. The result of these adjustments are further examples of management’s need to
place additional emphasis on strengthening and enforcing center-related manual prevent and
detect controls that extend beyond the finance and logistics departments as these are the baseline
controls upon which NASA is reliant. Furthermore, management should revisit their entity-level
detect controls at the headquarters level to ensure that monthly reviews of center transactions and
differences noted in subsidiary ledger reconciliations are reviewed, resolved, and communicated
to center personnel in a timely manner for entry into the Core Financial Module or subsidiary
ledgers.


Recommendation

We recommend that NASA management:

   •   Develop more robust center-related manual prevent and detect controls that extend
       beyond the finance and logistics departments, including a formal policy that requires
       supervisory review and signoff evidencing the approval of property, plant and equipment
       entries prior to their posting in the Core Financial Module.

   •   Revisit their entity-level detect controls at the headquarters level to ensure that
       differences and corrections are resolved and communicated timely to center personnel for
       entry into the Core Financial Module or subsidiary ledgers.

   •   Continue completing its implementation of suggested recommendations and developing
       detailed corrective action plans. In addition, we once again place further emphasis on
       recommending that NASA fundamentally revisit its approach to capitalizing property by
       documenting, analyzing, and implementing robust control changes from end to end to all
       categories of PP&E. We also recommend that all NASA obligation documents and
       expenditures be coded to identify whether they relate to a property acquisition to create a
       record for comparison to recorded property transactions and subsidiary ledgers, be they
       NASA activities or contractors.
!@                                                      Q   Ernst & Young LLP

Report on Internal Control
Page 21 of 22

                                            OTHER MATTERS

               Summary of FY 2005 Material Weaknesses and Reportable Conditions
Issue Area                             Summary Control Issue                    FY 2006 Status


Material Weaknesses
Financial Systems, Analyses, and       Documentation regarding significant      Modified Repeat Condition.
Oversight                              accounting events, recording of non-
                                       routine transactions, and post-
                                       closing adjustments, as well as
                                       corrections and other adjustments
                                       made in connection with data
                                       conversion issues, must be
                                       strengthened.

                                       Processes to prepare financial
                                       statements need improvement.

                                       Certain weaknesses noted relating to
                                       general and application controls.
Further Research Required to           Supporting documentation to              Progress made; combined with
Resolve Fund Balance with Treasury     support application of rigorous          Financial Systems, Analyses, and
Differences                            reconciliation processes was not         Oversight Weakness. Corrective
                                       available. Unreconciled differences      actions related to suspense accounts,
                                       were identified in the FY 2003-2005      budget clearing accounts and
                                       year-end reconciliations.                unreconciled differences are needed.
Enhancements Needed for Controls       Controls relating principally to         Modified Repeat Condition.
over Property, Plant, and Equipment    contractor-held PP&E and materials
and Materials                          and NASA-held assets in space and
                                       WIP need improvement;
                                       headquarters oversight needs
                                       improvement.
Reportable Condition:
Internal Controls in Estimating        Weaknesses noted in NASA’s               Progress made; combined with
NASA’s UEL Require Enhancement         ability to generate auditable UEL        Financial Systems, Analyses, and
                                       estimates using IDEAL estimating         Oversight Weakness. Corrective
                                       methodology and to identify              actions related to the IDEAL system
                                       disclosure items; and enhancing the      and the level of the Office of the
                                       independent quality review.              CFO participation are needed.



                 *       *         *        *       *           *        *       *        *
!@                                              Q   Ernst & Young LLP

Report on Internal Control
Page 22 of 22

In addition, with respect to NASA’s internal control over Required Supplementary Stewardship
Information and performance measures reported in the Management’s Discussion and Analysis,
we were unable to apply certain procedures prescribed by OMB Bulletin No. 06-03, because of
the limitations on the scope of the audit of the financial statements, as discussed in our Report of
Independent Auditors, dated November 3, 2006. Further, we did not audit and do not express an
opinion on such controls.

We also noted certain other matters involving internal control that we will report to NASA
management in a separate letter dated November 3, 2006.

This report is intended solely for the information and use of the management and the OIG of
NASA, OMB, and Congress and is not intended to be and should not be used by anyone other
than these specified parties.




November 3, 2006
Washington, D.C.
                                                       Q   Ernst & Young LLP                  Q   Phone: (202) 327-6000

                                                           1225 Connecticut Avenue, N.W.          Fax:   (202) 327-6200
                                                           Washington, DC 20036                   www.ey.com




                     Report on Compliance with Laws and Regulations



To the Administrator and the Office of Inspector General
of the National Aeronautics and Space Administration


We were engaged to audit the financial statements of the National Aeronautics and Space
Administration (NASA) as of and for the year ended September 30, 2006, and have issued our
report thereon dated November 3, 2006. The report states that because of the matters discussed
therein, the scope of our work was not sufficient to enable us to express, and we do not express,
an opinion on the consolidated balance sheet as of September 30, 2006, and the related
consolidated statements of net cost, changes in net position and financing and combined
statement of budgetary resources for the fiscal year then ended.

The management of NASA is responsible for complying with laws and regulations applicable to
NASA. We performed tests of its compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain other laws and regulations specified in Office of
Management and Budget (OMB) Bulletin No. 06-03, Audit Requirements for Federal Financial
Statements, including the requirements referred to in the Federal Financial Management
Improvement Act of 1996 (FFMIA). We limited our tests of compliance to these provisions, and
we did not test compliance with all laws and regulations applicable to NASA.

The results of our tests disclosed two instances of potential noncompliance with the laws and
regulations discussed in the preceding paragraph, exclusive of FFMIA, that are required to be
reported under Government Auditing Standards or OMB Bulletin No. 06-03. First, NASA’s
management has determined that it has violated certain provisions of the Anti-Deficiency Act
(P.L. 101-508 and OMB Circular A-11). We have been advised that appropriate reporting of the
violation was performed during October 2006. Additionally, NASA has potentially violated
certain requirements of the Improper Payments Information Act of 2002. During FY 2006,
NASA management was unable to provide sufficient documentation to support performance of
an annual review of all programs and activities that it administers to identify all such programs
and activities that may be susceptible to significant improper payments. NASA management
indicated that an assessment was performed to estimate an error rate on research and
development contracts related to payments between FY 1997 and FY 2005.




                         Ernst & Young LLP is a member of Ernst & Young International, Ltd.
!@                                             Q   Ernst & Young LLP

Report on Compliance with Laws and Regulations
Page 2 of 3

Under FFMIA, we are required to report whether NASA’s financial management systems
substantially comply with federal financial management systems requirements, applicable federal
accounting standards, and the United States Standard General Ledger (SGL) at the transaction
level. To meet this requirement, we performed tests of compliance with FFMIA Section 803(a)
requirements. However, as noted above, we were unable to complete our audit. Based upon the
results of the tests we were able to complete, we noted certain instances, described below, in
which NASA’s financial management systems did not substantially comply with certain
requirements:

   •    The NASA accounting system does not conform to certain Federal requirements.
        NASA’s management continues to identify data integrity and configuration issues in the
        Core Financial Module, which results in inappropriate transactional postings.
        Additionally, certain subsidiary systems, including property, are not integrated with the
        Core Financial Module and are not complemented by sufficient manual preventative and
        detect type controls.

   •    Data within NASA’s financial system have not been validated as reliable and may not be
        reliable to support NASA’s financial statements. Additionally, certain data was not
        readily available to adequately support sufficient reconciliations and analyses of
        significant fluctuations in account balances, with fluctuation review processes impeded
        by acknowledged deficiencies in baseline information used in comparisons.

    •   Reviews of general and application controls over financial management systems
        identified certain departures from requirements specified in OMB Circular A-127,
        Financial Management Systems, and OMB Circular A-130, Management of Federal
        Information Resources. Additionally, the Office of Inspector General of NASA (OIG)
        identified certain issues related to systems as part of its Federal Information Security
        Management Act (FISMA) and other OIG projects.

    •   As part of its FMFIA self assessment, NASA management has identified its financial
        management system as a material weakness. NASA management indicated that since
        the completion of the roll-out of the Integrated Enterprise Managements Program’s
        (IEMP) core financial management system, challenges in system processes,
        configuration, and capabilities have surfaced. They believe that the current IEMP
        software system has certain capability limitations which require compensating controls
        which have not been fully implemented.

The Report on Internal Control and management letter include information related to the
financial management systems that were found not to comply with the requirements, relevant
facts pertaining to the noncompliance, and our recommendations related to the specific issues
presented. It is our understanding that NASA’s management agrees with the facts as presented
and that relevant comments from NASA’s management responsible for addressing the
noncompliance are provided as an attachment to this report.
!@                                          Q   Ernst & Young LLP

Report on Compliance with Laws and Regulations
Page 3 of 3

Because we could not complete our audit, we were unable to determine whether there were other
instances of noncompliance with laws and regulations that are required to be reported.

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit, and accordingly, we do not express such an opinion.

This report is intended solely for the information and use of management and the Office of
Inspector General of NASA, OMB, and Congress, and is not intended to be and should not be
used by anyone other than these specified parties.




November 3, 2006
Washington, D.C.
